                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

     Case Number: I07120051
                                                                                   11 .        Page 1 of I



          This investigation was initiated based upon a complaint from an individual' who stated that a
          Principal Investigator (PI) on an NSF ward^ has: 1) submitted false reports and charges for a
          particular section of the project4 which the complainant believed was not being worked on and 2)
          failed to track expenses on the project, particularly time and effort reports for consultants.

          The NSF Program ~ i r e c t o was
                                        r ~ interviewed and explained that the results of a reverse site visit
          report indicated the project was proceeding more favorably than expected and there were no
          issues found. The site visit report was reviewed and it indicated that the particular portion of the
          project, which was questioned by the.complainant, was not implemented thus there is no
          evidence of false reporting or false charges. The PI provided documentation on this award. Our
          review determined that the PI has tracked expenses on the project. 'Since no evidence has been
          found to substantiate the allegations, no further review is required.

           Accordingly, this matter is closed.




I'                                                                                                               111
 NSF 01G Form 2 (1 1/02)
